1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
---------------------------------------------

No. 17-50927
---------------------------------------------

KEVIN WALLACE,
Plaintiff - Appellant
v.
ANDEAVOR CORPORATION,
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from the United States District Court
for theWestern District of Texas
-----------------------------------------------------------------------

(Filed Feb. 15, 2019)
Before JONES, CLEMENT, and SOUTHWICK, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
This suit concerns the federal Sarbanes-Oxley
Act, which protects those who blow the whistle on their
employer’s failure to comply with Securities and Exchange Commission reporting requirements. The district court found that the employer’s decision to fire the
plaintiff was not prohibited retaliation and that the
plaintiff did not have an objectively reasonable belief

2a
that a violation of reporting requirements had occurred. We AFFIRM.
FACTS AND PROCEDURAL HISTORY
Plaintiff Kevin Wallace worked for Tesoro Corporation from June 2004 until his termination in March
2010. In 2009 and 2010, Wallace was a Vice President
of Pricing and Commercial Analysis. Wallace reported
to Claude Moreau, who reported to Everett Lewis. At
some point in late 2009 or early 2010, Lewis tasked
Wallace with investigating financial performance in
various industry segments. Through the investigation,
Wallace came to believe that Tesoro misunderstood the
comparative profitability of certain regions. Wallace
also determined that Tesoro improperly booked taxes
as revenues in certain internal reporting channels.1
On February 8, 2010, Wallace sent an email to Moreau and Tracy Jackson, Tesoro’s Vice President of Internal Audits, explaining that Pacific Northwest
intracompany profit calculations were erroneous in
part due to the accounting for taxes. Wallace wrote
that “external retail could be ok because it is treated
1

We were notified in the appellee’s briefing that in 2017,
Tesoro changed its name to Andeavor Corporation. Appellant
moved in November 2018 to substitute Marathon Petroleum Corporation as the appellee, as Marathon allegedly had acquired all
the shares of Andeavor. We agree to substitute Andeavor as the
appellee in the caption of this case but see no basis to make Marathon the party. We will, nonetheless, refer to the appellee in the
opinion as Tesoro, as it was the name of the party at the time of
these events.

3a
differently in the intracompany process.” After sending
that email, Wallace met with Jackson on either February 8 or 9. According to Wallace, Jackson was concerned that a footnote in Tesoro’s SEC disclosures
might have been incorrect.
On February 9, Wallace sent another email discussing Tesoro’s practice of booking taxes as revenues
and stated that he did not think “there is any chance
that at the corporate level this is not properly accounted for.” Inferences from Wallace’s testimony could
be drawn that after the February 9 email he changed
his mind, became concerned that Tesoro did not properly account for sales taxes in Tesoro’s SEC disclosures,
and spoke to Moreau about the issue.
Wallace was also a sub-certifier of Tesoro’s financial statements. In early 2010, Wallace certified that he
knew of no reason why the 2009 Form 10-K could not
be certified. The filing expressly included the following:
Federal excise and state motor fuel taxes,
which are remitted to governmental agencies
through our refining segment and collected
from customers in our retail segment, are included in both “Revenues” and “Costs of sales
and operating expenses.” These taxes, primarily related to sales of gasoline and diesel fuel,
totaled $283 million, $278 million and $240
million in 2009, 2008 and 2007, respectively.
Tesoro also disclosed in its 10-K that “[f ]ederal
and state motor fuel taxes on sales by our retail segment are included in both ‘Revenues’ and ‘Costs of

4a
sales and operating expenses.’ ” Jackson testified that
the disclosures included both excise and sales taxes.
On March 12, 2010, the day of Wallace’s termination,
Wallace certified that he was unaware of any “business or financial transaction that may not have been
properly authorized, negotiated, or recorded” for 2009.
While Wallace was investigating internal comparative profitability and accounting for taxes, the Tesoro
human resources department began investigating Wallace. It found a pattern of unacceptable behavior,
including favoritism and fostering a hostile work environment. Tesoro terminated Wallace and asserts it was
for his poor performance. Wallace claims he was terminated in retaliation for reporting Tesoro’s practice of
booking sales taxes as revenues, which he claims was
not properly disclosed in Tesoro’s public filings.
Wallace brings his claim under the anti-retaliation provision of the Sarbanes-Oxley Act (“SOX”). 18
U.S.C. § 1514A(a). He claims he personally told Moreau that Tesoro “puffed” revenue figures in SEC filings. Tesoro moved for summary judgment. Wallace
responded with briefing and a declaration from Douglas Rule. Tesoro moved to strike the declaration. The
magistrate judge struck only those portions that it determined were expert testimony, and the district court
adopted those recommendations. The magistrate judge
also recommended that summary judgment be granted
to Tesoro. The district court did so. Wallace appeals,
claiming error in granting summary judgment and in
striking portions of Rule’s declaration.

5a
DISCUSSION
We review the grant of summary judgment de
novo. Morris v. Powell, 449 F.3d 682, 684 (5th Cir. 2006).
All inferences “must be viewed in the light most favorable to the nonmoving party.” Bolton v. City of Dallas,
472 F.3d 261, 263 (5th Cir. 2006). A movant is entitled
to summary judgment if it “shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” FED. R. CIV. P.
56(a).
Wallace’s retaliation claim is brought under the
whistleblower protections of SOX. Registered companies are prohibited from
discharg[ing] . . . an employee . . . because of any
lawful act done by the employee to provide information . . . regarding any conduct which
the employee reasonably believes constitutes
a violation of . . . any rule or regulation of the
Securities and Exchange Commission . . .
when the information . . . is provided to . . . a
person with supervisory authority over the
employee.
18 U.S.C. § 1514A(a). A retaliation claim under that
provision requires an employee prove “by a preponderance of the evidence, that (1) he engaged in protected
whistleblowing activity, (2) the employer knew that he
engaged in the protected activity, (3) he suffered an
‘adverse action,’ and (4) the protected activity was a
‘contributing factor’ in the ‘adverse action.’ ” Halliburton, Inc. v. Admin. Review Bd., 771 F.3d 254, 259 (5th
Cir. 2014) (footnote omitted) (quoting Allen v. Admin.

6a
Review. Bd., 514 F.3d 468, 475-76 (5th Cir. 2008)). Wallace must also show that his belief that Tesoro committed a covered violation was both objectively and
subjectively reasonable. Wallace v. Tesoro Corp., 796
F.3d 468, 474-75 (5th Cir. 2015). “The objective standard examines whether the belief would be held by ‘a
reasonable person in the same factual circumstances
with the same training and experience as the aggrieved employee.’ ” Id. (quoting Allen, 514 F.3d at
477).
Wallace claims that the covered conduct he reported was that Tesoro reported “puffed” revenue figures “to the SEC and the public.” Wallace points to a
statement by a “Tesoro pricing official,” who “confirmed” that the “misallocations found by Wallace’s
investigation overstated profits by $30 million.” Wallace’s claim centers on his purported belief that the inclusion of sales taxes in revenues for the retail segment
was not properly disclosed in SEC filings. Wallace
acknowledges that excise taxes were disclosed, but he
believed Tesoro was not accurately reporting its treatment of sales taxes. Wallace claimed that “revenues
were not being recognized appropriately, affected consolidated numbers[,] and were misreported in the 10K and 10-Q filings. . . . violat[ing] the SEC rules requiring compliance with GAAP, keeping accurate books,
maintaining internal controls[,] and filing correct reports.”
This case turns on whether Wallace’s purported
belief that his employer was misreporting its revenue
was objectively reasonable in light of the undisputed

7a
facts. If Wallace’s belief was not objectively reasonable,
his SOX retaliation claim fails. See id. In answering
that question, we must also resolve an evidentiary dispute.
A. Objective Reasonableness of Wallace’s Claimed
Belief
We start with examining Wallace’s training and
experience that forms the basis of his belief. See id.
Wallace had extensive business experience that included “implementing best business practices,” performance and market analysis, oversight of accounting
services, asset valuation, and experience with Tesoro’s
internal accounting system, which Wallace refers to as
a “SAP system.” As a sub-certifier at Tesoro, Wallace
had specific expertise in its SEC financial reporting
practices. Given Wallace’s background and experience
with accounting and SEC reporting, he should be capable of understanding disclosures in SEC filings.
We next turn to the facts underlying Wallace’s
claim. Wallace testified he reviewed the 2009 10-K,
which was filed March 1, 2010, shortly before his termination on March 12, 2010. As a certifier, he was required to state whether he knew of any reason why the
2009 10-K could not be certified. Wallace testified that
he knew of no reason why the 2009 10-K could not be
certified. Notably, the 2009 10-K included the following
language:
Federal excise and state motor fuel taxes,
which are remitted to governmental agencies

8a
through our refining segment and collected
from customers in our retail segment, are included in both “Revenues” and “Costs of sales
and operating expenses.” These taxes, primarily related to sales of gasoline and diesel fuel,
totaled $283 million . . . in 2009.”
When discussing its retail segment in its 2009 10K, Tesoro also disclosed that “[f ]ederal and state motor
fuel taxes on sales by our retail segment are included
in both ‘Revenues’ and ‘Costs of sales and operating expenses’.” Wallace specifically mentioned sales taxes on
fuel in Hawaii as an example of sales tax revenues that
he believed were improperly accounted.
Wallace attempts to create fact issues on the question of whether his belief in a covered SOX violation
was reasonable by pointing to the timing of his certifications, noting that he certified the 2009 10-K, “and did
not include the period in 2010 when he discovered and
reported his concerns.” He also specifically testified
that his certification on the day of his termination applied only to 2009.
Wallace’s factual argument fails because the same
accounting issues he found in 2010 also existed in
2009. Wallace specifically blames the “antiquated SAP
system” and a “lack of controls on [Tesoro’s] transfer
prices” for the inclusion of taxes as revenues and internal profitability reporting issues, which were identified
in 2008 and known to Wallace at the end of 2009 or
beginning of 2010. That means there is no reasonable
dispute that Wallace was aware that the inclusion of
sales taxes as revenues would have occurred in 2009

9a
because nothing indicated to Wallace that the procedure for internal revenue reporting changed in the beginning of 2010. Furthermore, a reporting individual
who is a sub-certifier with accounting oversight experience should conduct a reasonable investigation to ensure the reasonableness of his conclusion that the
public disclosures contained a reporting violation. See
Allen, 514 F.3d at 479. Had Wallace conducted a limited investigation, he would have determined that the
same footnote present in the 2009 10-K was present
in the 2008 10-K. A brief look at the retail segment
of the 10-K, which Wallace alleges was the source of
the sales-taxes-as-revenues problem, would show that
Tesoro disclosed that fuel sales taxes were included in
revenues.
Jackson also testified that Tesoro’s SEC disclosures include sales taxes, not just excise taxes. Wallace
attempts to discount the certainty with which Jackson
testified, but he does not offer any conflicting evidence
on that point other than a portion of Rule’s declaration
that was struck. Thus, whether there is a dispute of
fact turns on whether the district court erred when it
struck portions of Rule’s declaration.
B. Striking of Portions of Douglas Rule’s Declaration
This court reviews evidentiary rulings for abuse of
discretion. Seatrax, Inc. v. Sonbeck Int’l, Inc., 200 F.3d
358, 370 (5th Cir. 2000). “A trial court abuses its discretion when it bases its decision on an erroneous view of

10a
the law or a clearly erroneous assessment of the evidence.” United States v. Caldwell, 586 F.3d 338, 341
(5th Cir. 2009).
We review only the district court’s decision to
strike paragraph 22 of Rule’s declaration. There Rule
opined on the differences between sales and excise
taxes and whether Tesoro accurately disclosed sales
taxes in its SEC filings. A party is required to disclose
the identity of expert witnesses it plans to use at trial
to present evidence under Federal Rules of Evidence
702, 703, or 705. FED R. CIV. P. 26(a)(2)(A). In disclosing
the identity of the expert witness, a party is also required to submit a written report. Id. at 26(a)(2)(B).
Wallace does not dispute that he failed to make a
timely disclosure of Rule as an expert or provide a report. At issue here is whether paragraph 22 of Rule’s
declaration constitutes expert or lay opinion testimony.
Lay opinion testimony is limited to that which is
“rationally based on the witness’s perception” and “not
based on scientific, technical, or other specialized
knowledge within the scope of Rule 702.” FED. R. EVID.
701. Wallace argues that Rule’s explanation of the difference between excise taxes and sales taxes is based
on his perceptions from working at Tesoro for several
years. Wallace argues that even if Rule’s declaration is
based upon “some specialized knowledge, it is admissible so long as the lay witness offers straightforward
conclusions from observations informed by his or her
experience.” United States v. Sanjar, 876 F.3d 725, 738
(5th Cir. 2017).

11a
Rule’s training, education, and experience included “ ‘refinery economics, strategy management for
commercial crude oil, business development,’ and . . .
‘transfer pric[ing] between operating segments.’ ” Notably, Rule did not deal explicitly with tax calculations,
SEC reporting requirements, or investor relations. We
conclude that Rule’s declaration as to paragraph 22
could not have been based on his lay experience as
a Tesoro employee but rather on specialized accounting knowledge. Rule’s opinion on the application of tax
accounting definitions to the SEC disclosures is an example of Rule applying his “specialized knowledge” to
“help the trier of fact . . . understand the evidence.”
FED. R. EVID. 702(a).
The district court did not abuse its discretion in
finding that paragraph 22 of Rule’s declaration was impermissible expert testimony.2 AFFIRMED.

2

We express no view on the admissibility of any of the remainder of Rule’s declaration, as those sections are not applicable
to the question of Wallace’s reasonable belief.

12a
2017 WL 6403050
United States District Court, W.D.
Texas, San Antonio Division.
Kevin WALLACE, Plaintiff,
v.
TESORO CORP., Defendant.
Civil Action No. SA-11-CA-099-FB
|
Signed 09/28/2017
Attorneys and Law Firms
Alex L. Katzman, Katzman & Katzman, PLLC, Ashley
Brunner Barr, Disability Rights Texas, Christopher J.
McKinney, The McKinney Law Firm, PC, San Antonio,
TX, for Plaintiff.
Charles W. Hurd, III, Robert A. Valadez, Shelton &
Valadez, P.C., San Antonio, TX, Kenneth P. Herzinger,
Orrick, Herrington & Sutcliffe LLP, San Francisco, CA,
Michael Delikat, Renee Phillips, Orrick, Herrington &
Stucliffe [sic], LLP, New York, NY, Rachel Anne Ekery,
Wallace Bernard Jefferson, Alexander Dubose Jefferson & Townsend LLP, Austin, TX, for Defendant.
ORDER ACCEPTING MEMORANDUM
AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
FRED BIERY, UNITED STATES DISTRICT JUDGE
Before the Court are the Memorandum and Recommendation of the United States Magistrate Judge

13a
concerning Defendant’s Motion for Summary Judgment (docket #146); Plaintiff ’s Objections to the Magistrate’s Memorandum and Recommendation to Grant
Defendant’s Motion for Summary Judgment (docket
#149); and Defendant’s Response to Plaintiff ’s Objections to the Magistrate’s Memorandum and Recommendation to Grant Defendant’s Motion for Summary
Judgment (docket #151).
Where no party has objected to a Magistrate
Judge’s Report and Recommendation, the Court need
not conduct a de novo review of them. See 28 U.S.C.
§ 636(b)(1) (“A judge of the court shall make a de novo
determination of those portions of the report or specified proposed findings and recommendations to which
objection is made.”). In such cases, the Court need only
review the Report and Recommendation and determine whether they are either clearly erroneous or contrary to law. United States v. Wilson, 864 F.2d 1219,
1221 (5th Cir.), cert. denied, 492 U.S. 918 (1989).
On the other hand, any Report or Recommendation to which there are objections requires de novo review by the Court. Such a review means that the Court
will examine the entire record, and will make an independent assessment of the law. The Court need not,
however, conduct a de novo review when the objections
are frivolous, conclusive, or general in nature. Battle v.
United States Parole Commission, 834 F.2d 419, 421
(5th Cir. 1987).
In the Memorandum, United States Magistrate
Judge Primomo recommends that defendant Tesoro’s

14a
motion for summary judgment be granted. The Court
has reviewed the plaintiff’s objections to the Memorandum and Recommendation and defendant’s response to
those objections. In addition, the Court has conducted a
de novo review of the Magistrate Judge’s Memorandum and Recommendation and finds the objections to
the Magistrate Judge’s Recommendations are without
merit. Therefore, the Court hereby accepts, approves,
and adopts the Magistrate Judge’s factual findings
and legal conclusions contained in the Memorandum
and Recommendation (docket #146) and incorporates
herein the arguments and authorities presented by the
defendant in Defendant’s Response to Plaintiff ’s Objections to the Magistrate’s Memorandum and Recommendation to Grant Defendant’s Motion for Summary
Judgment (docket #151). The Memorandum and Recommendation shall be accepted pursuant to 28 U.S.C.
§ 636(b)(1) such that Defendant’s Motion for Summary
Judgment (docket #121) shall be GRANTED.
Accordingly, it is hereby ORDERED that the Memorandum and Recommendation of the United States
Magistrate Judge filed in this case (docket #146) is ACCEPTED such that Defendant’s Motion for Summary
Judgment (docket #121) is GRANTED such that plaintiff ’s remaining claim is DISMISSED WITH PREJUDICE. IT IS FURTHER ORDERED that this case is
CLOSED. Motions pending, including Defendant’s Motion to Exclude Expert Witness Opinions of Douglas
Deffenbaugh (docket #124), are DISMISSED as moot.
It is so ORDERED.

15a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
KEVIN WALLACE,
Plaintiff,
v.
TESORO CORP.,
Defendant.

*
*
*
*
*
*
*

CIVIL NO.
SA-11-CA-00099-FB

MEMORANDUM AND RECOMMENDATION
(Filed Feb. 23, 2017)
This case involves a claim that defendant Tesoro
Corporation terminated plaintiff Kevin Wallace’s employment in retaliation for engaging in protected activity pursuant to the Sarbanes-Oxley Act of 2002
(“SOX”) in violation of 18 U.S.C. § 1514A. According to
his Fourth Amended Complaint, plaintiff was terminated in March 2010 because he reported that taxes
collected by Tesoro were being booked as revenue, artificially inflating profits, thereby skewing the financial
results reported on the Company’s 10-K and 10-Q filings with the Security and Exchange Commission.
Tesoro has filed a motion for summary judgment
(docket nos. 121, 135), to which motion plaintiff has responded. (Docket no. 129).

16a
Summary Judgment
Summary judgment shall be rendered if the movant shows that “there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Rule 56(a), Fed.R.Civ.P. The plain
language of this rule mandates the entry of summary
judgment, after adequate time for discovery and upon
motion, against a party who fails to make a showing
sufficient to establish the existence of an element essential to that party’s case, and on which that party
will bear the burden of proof at trial. Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986). In such a situation,
there can be no genuine issue as to any material fact,
since a complete failure of proof concerning an essential element of the nonmoving party’s case necessarily
renders all other facts immaterial. Id. at 322-23. The
mere existence of some alleged factual dispute between
the parties will not defeat an otherwise properly supported motion for summary judgment; the requirement is that there be no genuine issue of material fact.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48
(1986).
A summary judgment movant or opponent must
cite to materials in the record or show that the materials cited do not establish the absence or presence of a
genuine dispute, or that an adverse party cannot produce admissible evidence to support the fact. Rule
56(c)(1), Fed.R.Civ.P. An affidavit or declaration used
to support or oppose a motion must be made on personal knowledge, set out facts that would be admissible in evidence, and show that the affiant or declarant

17a
is competent to testify to the matters stated. Rule
56(c)(4), Fed.R.Civ.P. If a party fails to properly support
an assertion of fact or fails to properly address another
party’s assertion of fact, as required by Rule 56(c), the
Court may grant summary judgment if the motion and
supporting materials show that the movant is entitled
to it. Rule 56(e), Fed.R.Civ.P. In ruling upon a motion
for summary judgment, a court must view the evidence
in the light most favorable to the opposing party and
all justifiable inferences are to be drawn in his favor.
Tolan v. Cotton, 572 U.S. ___, 134 S.Ct. 1861, 1866, 188
L.Ed.2d 895 (2014); Anderson, 477 U.S. at 255.
Procedural Background
Wallace filed a second amended complaint alleging
essentially four categories of protected activity: investigating and reporting the booking of taxes as revenues, investigating whether Tesoro had some sort of
side agreement in Idaho Falls, Idaho, that would violate antitrust laws, identifying retaliation against Wallace for raising concerns about violations of the Tesoro
Code of Conduct on certificates of compliance in 2008
and 2009, and investigating and reporting suspected
wire fraud from inconsistent discounts and price signaling. Wallace v. Tesoro Corp., 796 F.3d 468, 473 (5th
Cir. 2015). Tesoro moved to dismiss, and the undersigned recommended granting the motion as to the
first three categories of protected activity and allowing
amendment to cure deficiencies related to the wire
fraud-based claim. Id. In addition to filing objections,
Wallace filed a third amended complaint. Id. at 474.

18a
Tesoro moved to dismiss it, raising the argument that
the wire fraud-based claims had not been presented in
the OSHA complaint and were, therefore, unexhausted. Id. The undersigned recommended dismissing that complaint based on the failure to exhaust, to
which Wallace objected. Id. The District Court accepted
the recommendations, dismissing the first three categories of protected activity from the second amended
complaint.
On appeal, the Fifth Circuit found that SOX has
an exhaustion requirement, and the District Court correctly concluded that Wallace’s wire fraud-based protected activity was outside the scope of the OSHA
complaint or any investigation it would reasonably
prompt. Wallace, 796 F.3d at 474. Wallace did not question the District Court’s conclusions that his Idaho
Falls-related activity was not protected activity and
that Tesoro was unaware of any of Wallace’s actions relating to Idaho Falls; he, therefore, abandoned any
challenge to them. Id. Wallace did not object to the recommended dismissal of the 2008 Certificate and did
not challenge the reason given for dismissing the 2009
Certificate. Id. The Court of Appeals concluded that
Wallace had stated a claim upon which relief could be
granted regarding his investigating Tesoro’s allegedly
booking taxes as revenue and had adequately pleaded
that he engaged in protected activity relating to that
practice. Id.

19a
Factual Background
Plaintiff Kevin Wallace worked for Tesoro from
June 24, 2004 until his termination on March 12, 2010.
In 2009 and 2010, he served as Tesoro’s Vice President
of Pricing and Commercial Analysis as a member of the
Marketing Department. Wallace also managed the
Pricing team. In his role as VP, his job duties were to
establish national prices for refined petroleum products for retail and wholesale channels, establish market strategies to achieve financial objectives which
required detailed understanding of revenues, costs and
competitors pricing and strategies, supervision of employees that conducted detailed analysis of financial
performance (commercial analysis), as well as manage
the pricing input process into Tesoro’s systems. Both
the Pricing and Wholesale Marketing teams reported
to Claude Moreau, Senior Vice President of Marketing
who, in turn, reported to Executive Vice President and
Chief Operating Officer Everett Lewis.
Lewis assigned Wallace the project of investigating why the reported financial performance by the
arious channels (sales of petroleum products by category: retail, wholesale, unbranded wholesale, and bulk)
did not make sense in light of the known market
conditions. In 2009, as part of this investigation into
profitability, Wallace’s Pricing team looked at Tesoro’s
internal reports to determine whether Tesoro was
making the right choices in where they sold its product
and for what prices. Marketing’s cash forecasting did
not appear to be making sense, and Wallace’s team was
endeavoring to figure out why. Upon reviewing the

20a
early 2010 invoices in the first week of February 2010,
Wallace formed the opinion that they were not constructed appropriately. He met with Greg Belisle, Director of Commercial Accounting, and asked with
respect to the invoices, “This doesn’t look right. Would
– is – are we – are we wrong?” According to Wallace,
Belisle responded, “That doesn’t look right. I want to
go check with Tesoro’s best expert on GAAP (Generally
Accepted Accounting Principles).” According to Belisle,
the accountants informed him that booking taxes as
revenues was acceptable while, according to Wallace,
Belisle came back and told Wallace that the invoices
were wrong.
Wallace then sent an email to Moreau, which he
also forwarded to Tracy Jackson, Vice President of Internal Audit (“IA”). The e-mail referred to “inadequate
costing of taxes” but stated that “[e]xternal retail could
be ok because it is treated differently in the intracompany process.” After sending the email, Wallace
next met with Jackson and two of her subordinates in
IA on February 9, 2010. On February 9, 2010, Wallace
sent an email to Jackson, Belisle, and Bruce Gillett,
Plant Comptroller Northwest, indicating he did not believe it was a corporate level problem. Meanwhile IA
made its own inquiry and determined, from an external corporate reporting perspective, there was no discrepancy.
Wallace testifies that the next communication he
had regarding booking taxes as revenues was a meeting with Moreau, which his subordinates Michelle
Todesco and Jeff Evans, Director of Pricing, attended.

21a
His presentation to Moreau showed sales taxes as included in revenues in internal retail transaction data.
According to Wallace, Moreau expressed the view that
it was “no big deal,” to which Wallace responded, “Yes,
it is. And in the case of Hawaii (where the sales tax is
50 cents a gallon), it’s enormous.” Moreau then said,
“Well, this is a problem for the CEO – Bruce Smith.”
Wallace believed that the booking of taxes as revenue
“caused a distortion of marketing’s earnings” because
“the revenue should not include sales taxes and it was
including sales taxes.” During the latter part of February and early March 2010, Wallace exchanged multiple
emails with Moreau discussing the implications of
Tesoro’s practice of booking taxes as revenue.
**************************************************
Beginning around late October 2009, Wallace became the subject of employee complaints that he engaged in inappropriate behavior, including displaying
overt favoritism, publicly berating employees, and behaving autocratically and insubordinately. Tesoro initiated an investigation into the complaints. Employees
told Employee Relations (“ER”) that Wallace unilaterally refused to abide by an agreement that had been
reached by the Wholesale Marketing and Pricing Departments at a meeting in Long Beach, California in
September 2008, despite the fact that Moreau endorsed the Long Beach process. Bruce Tophoj told ER
that the Pricing and Marketing Departments did not
get along because of “Kevin’s behavior; Kevin’s attitude; he was brusk [sic]; he was abrupt; he was not a
team player and that made the working relationship

22a
very difficult.” One employee stated that Wallace “routinely disregards SVP’s Claude Moreau’s requests” and
instructs employees to be insubordinate to Moreau. ER
also received reports that Wallace was dishonest and
unethical.
On January 24, 2010, Rose Sambrano, the Director
of Employee Relations and Compliance, sent Moreau
and Lewis a document entitled “Allegation of ‘Hostile
Work Environment’ Summary and Recommendations,”
which summarized the information collected in the investigation to date. ER recommended several different
options to address Wallace’s behavior, including progressive discipline, a performance improvement plan,
and an executive coach. Sambrano also prepared for
Moreau a draft of year-end comments for Wallace’s performance evaluation.
On February 4th and on February 12th, employees
again complained to ER of being publicly criticized by
Wallace. On March 3, 2010, Lewis, Moreau, Sambrano
and Earl Pete Borths, the Managing Director for Employee Relations, met to discuss the recent developments with respect to Wallace and what actions should
be taken. Given the escalation of complaints, as well as
the opinion that Wallace’s problematic management
style would be “very difficult” to change, the participants in the meeting decided that Wallace’s employment should be terminated. Moreau seemed reluctant
to take this route and the least supportive of the group
of this decision, but he accepted Sambrano and Borth’s
recommendation to terminate. Moreau was the final decisionmaker. It was further determined that Wallace’s

23a
position should be eliminated so that he could receive
severance benefits. Wallace was informed of the termination decision on March 12, 2010.
Analysis
Title 18 U.S.C. § 1514A, entitled “Civil action to
protect against retaliation in fraud cases,” provides:
(a) Whistleblower protection for employees of
publicly traded companies. – No company with a
class of securities registered under section 12 of the Securities Exchange Act of 1934 (15 U.S.C. 781), or that
is required to file reports under section 15(d) of the Securities Exchange Act of 1934 (15 U.S.C. 78o(d)) . . .
may discharge, demote, suspend, threaten, harass, or
in any other manner discriminate against an employee
in the terms and conditions of employment because of
any lawful act done by the employee –
(1) to provide information, cause information to be
provided, or otherwise assist in an investigation regarding any conduct which the employee reasonably
believes constitutes a violation of section 1341, 1343,
1344, or 1348, any rule or regulation of the Securities
and Exchange Commission, or any provision of Federal
law relating to fraud against shareholders, when the
information or assistance is provided to or the investigation is conducted by –
...

24a
(C) a person with supervisory authority over the
employee (or such other person working for the
employer who has the authority to investigate, discover, or terminate misconduct) . . .
To prevail on a SOX whistleblower claim, an employee
must prove by a preponderance of the evidence that (1)
he engaged in protected activity; (2) the employer
knew that he engaged in the protected activity; (3) he
suffered an unfavorable personnel action; and (4) the
protected activity was a contributing factor in the unfavorable action. Allen v. Administrative Review Bd.,
514 F.3d 468, 475-76 (5th Cir. 2008). SOX prohibits a
publicly-traded company from retaliating against an
employee who reports information to a supervisor “regarding any conduct which the employee reasonably
believes constitutes a violation” of one of the six enumerated categories. 18 U.S.C. § 1514A(a)(1). An employee’s reasonable belief must be scrutinized under
both a subjective and objective standard. Allen, 514
F.3d at 477.
In support of its motion for summary judgment,
Tesoro alleges that Wallace never engaged in any SOXprotected activity. Tesoro first states that he never
“provided information” about a “reasonable belief ” of a
violation of “federal law relating to fraud against
shareholders” or an SEC rule violation with respect to
booking taxes as revenues. In Allen, the Fifth Circuit
held, based upon the law at the time, that an employee’s complaint must “definitively and specifically
relate” to one of the six enumerated categories found
in § 1514A. Allen, 514 F.3d at 476-77. As recognized in

25a
the appeal of this case, the Administrative Review
Board (“ARB”) has since reconsidered the issue and interpreted SOX not to require that the communication
definitively and specifically relate to one of the six SOX
categories. Wallace, 796 F.3d at 479. See Sylvester v.
Parexel Int’l LLC, ARB No. 07-123, 2011 WL 2517148,
at *14-15 (ARB May 25, 2011). The “critical focus is on
whether the employee reported conduct that he or she
reasonably believes constituted a violation of federal
law.” Villanueva v. U.S. Dep’t of Labor, 743 F.3d 103, 109
(5th Cir. 2014) (quoting Sylvester, 2011 WL 2517148, at
*15). See Wallace, 796 F.3d at 479.
On appeal, the Fifth Circuit found that Wallace
had sufficiently pleaded that he thought the accounting practice of booking taxes as revenue violated SEC
rules. As the Court of Appeals noted, the objective reasonableness of an employee’s belief under SOX cannot
be resolved as a matter of law if there is a genuine issue of material fact. Wallace, 796 F.3d at 479-80. As an
element of his cause of action, Wallace must create a
genuine issue of fact regarding the objective reasonableness of his belief to survive summary judgment. See
Celotex Corp. v. Catrett, 477 U.S. at 322-23. Thus, he
must create a genuine issue of fact that he believed the
practice of booking taxes as revenue violated SEC
rules. See Wallace, 796 F.3d at 479-80.
1.

Objective reasonableness

In his Fourth Amended Complaint, Wallace alleges that:

26a
. . . as part of his job as Tesoro VP of Pricing
and Commercial Analysis, Mr. Wallace discovered taxes collected by Tesoro were being
booked as revenue and costs were falsely attributed to transactions producing overstated
profits in both the branded retail segment and
the unbranded marketing segment. The practice of booking the taxes and underreporting
costs artificially inflated the profits reported,
thereby skewing the financial results reported on the Company’s 10-K and 10-Q filings with the SEC. Prior to his termination,
Mr. Wallace reported to Sr. VP of Marketing
Claude Moreau (his direct supervisor) and Internal Audit that Tesoro was not capturing
the revenues properly in the unbranded segment, that the costs were incorrect, and that
the profits reported were incorrect.
Fourth Amended Complaint, ¶ 25.
Wallace discovered that taxes were being
booked as revenues, thereby artificially inflating the profitability of certain segments of
Tesoro. These numbers are reported to the
SEC in the company’s annual 10-K filing and
quarterly 10-Q filings. Thus, Tesoro was
knowingly reporting inaccurate information
on its SEC-required reporting and in violation
of GAAP accounting standards (also an SEC
requirement).
Fourth Amended Complaint, ¶ 28.
Tesoro has misrepresented financial performance internally and externally in reported
financial results, to include the total revenue

27a
numbers reported in the 10-K and 10-Q SEC
filings, as a result of the “booking of taxes as
revenues” that Mr. Wallace reported and attempted to correct. Sr. VP Claude Moreau told
Mr. Wallace that the substance of Mr. Wallace’s findings created problems for Bruce
Smith, CEO, as Mr. Smith had informed the
Tesoro Board of Directors of different financial results. The foregoing conduct of defendant as discovered and reported by Mr. Wallace
violated the provisions of Section 13a of the
Securities Exchange Act of 1934 and Rule
13a-15 to maintain and ensure accurate financial reporting and to “devise and maintain
a system of internal controls.” and Section 13b
of the Securities Exchange Act of 1934,15
U.S.C. § 78m(b)(2)(B) requirements that no
person shall knowingly falsify any book, record, or account. See also 17 C.F.R. § 240.13b2.
Fourth Amended Complaint, ¶ 32.
Tesoro states that Wallace could not have had an
objectively reasonable belief of a SOX-covered violation at the time of his reports based on the limited
scope and timeframe of the issue he allegedly discovered and reported. The objective reasonableness of a
belief is evaluated based on the knowledge available to
a reasonable person in the same factual circumstances
with the same training and experience as the aggrieved employee. Allen, 514 F.3d at 477. Wallace’s
resume reflects that, prior to joining Tesoro, he had
years of business experience in areas including capital projects, economic analysis, market analytics, and

28a
complex strategic planning. In 2010, Wallace was
aware that Tesoro filed annual Form 10-Ks with the
SEC and was a subcertifier of the accuracy and correctness of quarterly and annual filings. On March 12,
2010, the date of his termination, he submitted his
2009 Annual Certificate of Compliance, indicating that
he was not aware of any business or financial transactions that were not properly authorized, negotiated, or
recorded and was not aware of any noncompliance with
the Tesoro Code of Conduct. Thus, the issues he discovered and reported were limited to the first several
weeks of 2010. Also, his emails in early February reflect that whatever discrepancies were created by
booking taxes as revenues were only an internal accounting problem, not one that affected the external
segment. By that time, complaints had already been
made against him by his employees regarding his improprieties as a manager, and Tesoro was investigating
what sanctions should be taken against him.
Tesoro contends that Wallace could not have reasonably believed that booking taxes as revenue was
fraud or violated SEC rules because Tesoro disclosed
the practice on the reports it filed with the SEC. Importantly, an employee’s reasonable but mistaken
belief that an employer engaged in conduct that constitutes a violation of one of the six enumerated categories is protected. Allen, 514 F.3d at 477. A reasonable
person in the same factual circumstances with the
same training and experience as Wallace would have
made some effort to determine if Tesoro was maintaining and ensuring accurate financial reporting and

29a
knowingly falsifying books, records, and accounts by
reporting taxes as revenues. No facts in evidence suggest that he did so.
Wallace attempts to justify this failure by arguing
that the SEC reports only reflect the reporting of excise
taxes, not sales taxes. Tesoro’s 2008 10-K, filed on
March 2, 2009, states that both “Revenues” and “Costs
of sales and operating expenses” “Include[ ] excise
taxes collected by our retail segment.” Tesoro filed its
Form 10-K for the year ending December 31, 2009 on
March 1, 2010. Tesoro’s 2009 10-K states that both
“Revenues” and “Costs of sales and operating expenses” “Include[ ] excise taxes collected by our retail
segment.” Tesoro filed its Form 10Q for the third quarter of 2009 on November 9, 2009. That 10-Q states:
Federal and state motor fuel taxes on sales by our retail segment are included in both “Revenues” and
“Costs of sales and operating expenses.” Tesoro’s Form
10-Q for the first quarter of 2010 contains the same
statement.
Tracy Jackson, the Tesoro Comptroller, testified
that the 10-K disclosure language “[t]hese taxes, primarily related to the sales of gasoline and diesel fuel”
includes sales taxes. Response, exh. 3, pp. 227-28. To
contradict Jackson, Wallace offers the testimony of
Douglas Rule who was employed by Tesoro from May
2005 until April 2016. His testimony regarding sales
and excise taxes has been stricken. The Tesoro 2008
10-K indicates under the subtitle Revenue Recognition:

30a
We include transportation fees charged to
customers in “Revenues”, and we include the
related costs in “Costs of sales and operating
expenses” in our statements of consolidated
operations. Federal excise and state motor
fuel taxes, which are remitted to governmental agencies through our refining segment and
collected from customers in our retail segment
are included in both “Revenues” and “Costs of
sales and operating expenses”. These taxes,
primarily related to sales of gasoline and diesel fuel, totaled . . .
The Tesoro 2009 10-K indicates under the subtitle Revenue Recognition:
Federal excise and state motor fuel taxes,
which are remitted to governmental agencies
through our refining segment and collected
from customers in our retail segment, are included in both “Revenues” and “Costs of sales
and operating expenses.” These taxes, primarily related to sales of gasoline and diesel fuel,
totaled . . .
As Jackson testified, this language indicates that
Tesoro reported that it included sales taxes as revenue.
Also, as noted above, the “critical focus is on
whether the employee reported conduct that he or she
reasonably believes constituted a violation of federal
law.” Villanueva, 743 F.3d at 109 (quoting Sylvester,
2011 WL 2517148, at *15). See Wallace, 796 F.3d at
479. Wallace claims that Moreau and others had an
incentive to book sales taxes as revenue in order to
inflate marketing revenue and, consequently, their

31a
compensation. Thus, Moreau had a motive to squelch
Wallace’s investigation by terminating him.
Congress enacted the Sarbanes-Oxley Act of 2002
to safeguard investors in public companies and restore
trust in the financial markets following the collapse of
Enron Corporation by protecting whistleblowers. Lawson v. FMR LLC, 134 S.Ct. 1158, 1161, 188 L.Ed.2d 158
(2014). It is clear from the record that Wallace was not
a whistleblower under SOX. His focus was not on a violation of federal law but on the impact on Tesoro profitability of reporting taxes as revenue. According to
Wallace, when he presented the issue of booking taxes
as revenue to Moreau, Moreau expressed the view that
what Wallace was showing him was “no big deal.” Wallace responded that it was and, in the case of Hawaii
with a 50 cents a gallon sales tax, the problem was
enormous, creating a very different result on the profitability of assets in Hawaii. Moreau then said it was a
problem for the CEO Bruce Smith who had made a different report to the Board.
Initially, prior to any communication with Moreau,
Wallace indicated to Belisle and Jackson his belief that
the problem of booking taxes as revenue was regional
only and did not reach the corporate level. Assuming
he did report to Moreau that the problem was corporate-wide, it is undisputed that in none of the emails
or meetings with Moreau did Wallace articulate any
belief regarding fraud, intentional misconduct, violation of laws, or violation of SEC rules. Wallace never
suggested in any of his communications any issue of
actual or imminent violation of a federal law relating

32a
to fraud against shareholders or an SEC regulation.
While Wallace may have been correct that booking
taxes as revenue caused Tesoro’s “numbers” to be incorrect, that did not translate into a report to Moreau
that Tesoro was falsifying SEC forms or violating SEC
rules. Wallace has failed to create a genuine issue of
fact regarding his objective reasonable belief that
Tesoro’s booking of taxes as revenue violated SEC
rules or constituted shareholder fraud. See Allen v. Admin. Review Bd., 514 F.3d 468, 479 (5th Cir. 2008) (considering the fact that she is an accounting expert and
Stewart’s SEC statements were publicly available,
Waldon could have ascertained whether Stewart’s SEC
statements failed to comply with SAB-101 and informed her supervisors of this fact, but she did not).
2.

Contributing factor and avoidance of liability

Next, Tesoro states that two of the three decisionmakers in his termination had no idea Wallace
raised an issue of booking taxes as revenue, and the
third (Moreau) accepted the termination recommendation made by the others. Tesoro contends that Wallace’s
termination was related not to his alleged protected activity but, rather, to an ER investigation showing that
he displayed disrespect for subordinates, peers, and
management, refused to work with others, was an arbitrary micromanager who displayed favoritism, and
intimidated others to get his own way. Tesoro argues
that the events leading to Wallace’s termination clearly
and convincingly demonstrate that Tesoro would have

33a
terminated any employee under the circumstances,
even in the absence of any purported “protected activity.”
As noted above, beginning around late October
2009, Wallace became the subject of employee complaints that he engaged in inappropriate behavior, including displaying overt favoritism, publicly berating
employees, and behaving autocratically and insubordinately. Tesoro initiated an investigation into the complaints. On January 24, 2010, Rose Sambrano, the
Director of Employee Relations and Compliance, sent
Moreau and Lewis a document entitled “Allegation of
‘Hostile Work Environment’ Summary and Recommendations,” which summarized the information collected in the investigation of employee allegations
against Wallace. The report indicated that Wallace was
an arbitrary micromanager, displaying favoritism/bias,
ignores core values, refusing to work with others, refusing to abide by group decisions/agreements, sometimes refusing management’s requests, demonstrating
little respect for management, peers, and direct reports, and intimidating to achieve his “way.” ER recommended several different options to address Wallace’s
behavior, including progressive discipline, a performance improvement plan, and an executive coach.
Sambrano also prepared for Moreau a draft of year-end
comments for Wallace’s performance evaluation.
On February 4th and on February 12th, employees
again complained to ER of being publicly criticized by
Wallace. On February 12th, Monica Prado emailed
Sambrano to complain that Wallace had just publicly

34a
excoriated her in the middle of a team meeting for using non-final figures for a forecast. When given the opportunity to explain his behavior, Wallace “said that he
was justified in criticizing her in the meeting on February 12. He knew he was terse and curt, and he was
exasperated beyond frustration with her. He was matter of fact and unapologetic.” When told he should not
have raised his voice to Prado at a recent staff meeting, he responded that “he intentionally ‘burned’ her
[Prado] because she deserved it and that he was not
out of line when people needed to be embarrassed publicly.”
On March 2, 2010, Sambrano received an email
from Lianne McClure, one of Wallace’s direct reports,
stating that his behavior continued to include criticizing and yelling publicly at employees, contradicting
senior management, telling lower level employees to
disregard instructions from senior level employees,
and undermining his direct reports by showing favoritism to certain individuals who were their direct reports. Motion for Summary Judgment, Sambrano Decl.
McClure revealed that she “recently had a miscarriage
and [she] believe[s] the stress [she] continue[s] to endure by Kevin was a contributing factor to [her] health.
. . . This is an ongoing hostile environment that no one
should have to endure.” On March 3, 2010, Lewis, Moreau, Sambrano and Earl Pete Borths, the Managing
Director for Employee Relations, met to discuss the recent developments with respect to Wallace and what
actions should be taken. Id. According to Sambrano,
Moreau had explored transferring Wallace to an

35a
individual contributor role, but was unable to find a
manager of another department who was willing to
allow Wallace to join. Id. Ultimately, Borths and Sambrano recommended that Wallace should be terminated in light of the extensive nature of the complaints
by other employees about Wallace’s managerial style,
his destructive impact on the working environment, including Lianne McClure’s highly disturbing and recent
disclosure about her stress-induced miscarriage, as
well as the opinion of Bruce Tophoj that Wallace’s problematic management style would be difficult to change.
Id. Moreau seemed reluctant to take this route and the
least supportive of the group of this decision, but he
accepted. Id. It was further determined that Wallace’s
position should be eliminated so that he could receive
severance benefits. Id.
In Hemphill v. Celanese Corp., 430 F.App’x 341,
342 (5th Cir. 2011), a case similar in several material
respects to the case at bar, Jeff Hemphill, employed as
an auditor by Celanese Corporation, identified and reported several potential violations of law and company
policy regarding a Celanese construction project in
Mexico. Ultimately, it was determined that company
policy, but not federal law, was violated. Hemphill also
worked on another project reviewing the travel and entertainment records for several Celanese employees
and discovered certain violations of company policies.
Hemphill later testified that these violations created
the risk of a “books and records violation” of SEC rules.
Hemphill’s attempt to raise this issue with Celanese’s
audit committee was rebuffed.

36a
Shortly after these matters, Hemphill was involved in an incident in which he began yelling at his
secretary in an abusive manner. One witness described
his behavior as “outrageously rude and completely
unprofessional”; “atrocious”; “a one-sided rant by Mr.
Hemphill . . . she was spoken to like a dog.” Another
witness stated Hemphill was “aggressive” and “abusive.” Human Resources conducted an investigation
and recommended termination. Hemphill’s supervisor,
who was the subject of the SOX-related retaliation allegations, accepted the recommendation and terminated Hemphill’s employment.
Hemphill sued under the whistleblower protection
provisions of SOX, arguing that Celanese terminated
his employment on the basis of activity protected by
that statute. The District Court granted Celanese’s
motion for summary judgment, holding that Hemphill’s protected activity was not a contributing factor in
his termination and, moreover, that Celanese demonstrated by clear and convincing evidence that it would
have terminated Hemphill regardless of his protected
activity.
On appeal, the Fifth Circuit noted that, even if it
assumed arguendo that Hemphill could establish a factual dispute as to whether his protected activity was a
contributing factor in Celanese’s termination decision,
Celanese could still avoid liability by presenting “clear
and convincing evidence that it would have taken the
same unfavorable personnel action in the absence of
that protected behavior.” Hemphill, 430 F.App’x 341,
345 (5th Cir. 2011) (Allen, 514 F.3d at 476). See 49

37a
U.S.C. § 42121(b)(2)(B)(iv). In affirming the grant of
summary judgment, the Court of Appeals noted that
Celanese had shown that its human resources department conducted a thorough investigation of the
incident involving Hemphill’s verbal abuse of his secretary. Id. The primary human resources employee
conducting the investigation had no prior knowledge of
Hemphill’s auditing activities. Id. She interviewed several employees who witnessed the incident and reported Hemphill’s behavior. Id.
Likewise, Tesoro’s ER conducted a thorough and
independent investigation of misconduct complaints
against Wallace. Unlike the single incident which
resulted in Hemphill’s termination, the complaints
against Wallace were far more extensive and occurred
over a longer period of time, and the investigation
against him began well before he reported the alleged
violations which form the basis for his SOX retaliation
complaint. Sambrano’s initial report to Moreau concerning the investigation did not recommend termination. Only after additional complaints were received in
February and March showing continued misconduct by
Wallace which potentially subjected to Tesoro to liability to another employee for his actions, did she and
Borths, in consideration of Bruce Tophoj opinion that
Wallace’s problematic management style would be difficult to change, recommend dismissal.
The Court of Appeals in Hemphill further found
that no evidence suggests that the two executives who
contributed to the decision to fire Hemphill – the human resources director and vice president of human

38a
resources – had any particular knowledge of or interest
in Hemphill’s auditing work. Hemphill, 430 F.App’x at
345. The only executive participating in the termination decision who worked with Hemphill on the audits
and knew of his discovery of accounting irregularities
was Hemphill’s supervisor. Id. The undisputed evidence indicates, however, that Hemphill’s supervisor
simply accepted the unanimous termination recommendation provided to her by Human Resources. Id.
Similarly, no summary judgment suggests that either Sambrano or Borths, the Director of Employee Relations and Compliance and the Managing Director for
Employee Relations, who made the recommendation to
terminate had any knowledge of Wallace’s complaints
that Tesoro was booking taxes as revenue in violation
of SEC rules.1 As in Hemphill, Wallace’s supervisor,
who approved the termination, was aware of his
complaints. The undisputed evidence in the case at bar,
indicates that Moreau, the final decisionmaker, attempted unsuccessfully to move Wallace to another position in the company to avoid termination. As in
Hemphill, he reluctantly accepted the termination recommendation of Sambrano and Borths.
The Court of Appeals in Hemphill concluded that
the evidence clearly and convincingly showed that Celanese terminated Hemphill because Celanese concluded that he mistreated his secretary. Hemphill, 430
1

There is no summary judgment evidence that either Belisle
or Jackson, the other two Tesoro officers to whom Wallace complained about booking taxes as revenue, played any part in the
decision to remove him from the company.

39a
F.App’x at 345. The Fifth Circuit rejected Hemphill’s
contention that Celanese’s investigation was unreliable because HR did not interview additional employees
who may have witnessed the incident. Id. Hemphill
produced no affidavit, sworn statement, or any other
admissible evidence beyond his own testimony demonstrating that these other witnesses would have testified in his favor, much less absolved him. Id. In short,
Hemphill produced no evidence casting doubt on the
integrity of the investigation. Id. Thus, the District
Court was correct that Celanese established by clear
and convincing evidence that Celanese would have terminated Hemphill regardless of any protected activity.
Id.
In the case at bar, Wallace attacks the integrity of
Sambrano’s investigation. He states she had no idea if
Wallace’s concerns about whether the specific business
process [sic] were legitimate or not, and had no discussions concerning antitrust issues and how Tesoro was
pricing its fuels. Wallace also mentions Prado’s performance issues. These matters were not Sambrano’s concern and would not justify Wallace’s behavior under
any circumstances. Wallace notes that Sambrano had
not completed the investigation of the employees’ complaints about him at the time of his termination. This
is correct as of the time she submitted her initial report
on January 24th. However, additional complaints in
February and March from Prado and McClure forced
Tesoro to act.
Wallace states that Sambrano never recommended that he be terminated. This is simply not true.

40a
In her Declaration of December 13, 2016 Sambrano
clearly testifies that, at the meeting of March 3, 2010,
“[u]ltimately, Borths and I recommended that Wallace
should be terminated . . . ” Motion for Summary Judgment, Sambrano Decl.
Wallace claims Sambrano never asked him for his
side of the story. The investigation was apparently kept
secret because both Prado and McClure feared retaliation by Wallace. Response, exh. 29, p. 126. In any event,
he was given the chance to discuss his public berating
of Prado on February 12th and believed he was fully
justified in being “terse and curt.” Wallace intentionally humiliated her publicly because he believed she
deserved it, and he was unapologetic.
In contrast to Hemphill, Wallace has presented
two statements ostensibly contradicting the findings of
the ER investigation. Michelle Todesco, was hired in
2008 as a Marketing Analyst, and reported to Steve
Ecker who was below Wallace in the chain of command.
She testified that, as a manager, Wallace encouraged
and helped her (and others) to succeed. She states he
was an excellent manager and, in her experience,
treated all employees with respect. Response, exh. 6.
Kristi Burchers, worked for Tesoro in late 2009 and
early 2010 as a Pricing Manager and reported directly
to Wallace. She also testified that Wallace was an excellent manager and, in her experience, treated all employees with respect. Response, exh. 7. Neither Todesco
nor Burchers was interviewed by ER during the investigation into wrongdoing by Wallace.

41a
As Todesco and Burchers are two of the employees
to whom Wallace is accused of showing favoritism,
their testimony that, in their experience, Wallace
treated all employees with respect carries little weight.
In any event, they do not provide evidence refuting
any of the specific events which formed the basis
for the investigation and findings in the ER report.
Additionally, their testimony says nothing about the
conclusions concerning Wallace’s insubordination or
dishonesty.
Significantly, at no point does Wallace deny any of
the allegations made against him. As noted above, he
appeared to take pride in publicly berating Prado because he believed she deserved it. No summary judgment evidence, from Todesco, Burchers or even Wallace
himself, contradicts the ER findings that he was insubordinate and dishonest. It is not the role of the Court
to second-guess a human resources decision that followed a thorough investigation. Wiest v. Tyco Elecs.
Corp., 812 F.3d 319, 333 (3d Cir.), cert. denied, 137 S.Ct.
82, 196 L.Ed.2d 198 (2016). The evidence clearly and
convincingly shows that Tesoro terminated Wallace’s
employment because Tesoro concluded that he engaged in misbehavior in several respects as regards his
subordinates, peers and supervisors. Tesoro has established by clear and convincing evidence that it would
have terminated Wallace regardless of any protected
activity. See Hemphill, 430 F.App’x at 345.

42a
RECOMMENDATION
It is the recommendation of the Magistrate Judge
that the motion of Tesoro for summary judgment be
GRANTED.
Instructions for Service and
Notice of Right to Object
The District Clerk shall serve a copy of this Memorandum and Recommendation on all parties either
electronically or by mailing a copy by certified mail,
return receipt requested. Pursuant to 28 U.S.C.
§ 636(b)(1) and Rule 72(b)(2), Fed.R.Civ.P., any party
who desires to object to this Memorandum and Recommendation must serve and file specific written objections within 14 days after being served with a copy.
Such party shall file the objections with the District
Clerk and serve the objections on all other parties and
the Magistrate Judge. A party’s failure to file written
objections to the findings, conclusions, and recommendations contained in this report within 14 days after
being served with a copy shall bar that party from
de novo review by the District Judge of those findings, conclusions, and recommendations and, except on
grounds of plain error, from appellate review of factual
findings and legal conclusions to which the party did
not object, which were accepted and adopted by the
District Court. Thomas v. Arn, 474 U.S. 140, 150 (1985);
Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415,
1428-29 (5th Cir. 1996).

43a
SIGNED February 23, 2017.
/s/ John W. Primomo
JOHN W. PRIMOMO
UNITED STATES
MAGISTRATE JUDGE

44a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-50927
-----------------------------------------------------------------------

KEVIN WALLACE,
Plaintiff - Appellant
v.
ANDEAVOR CORPORATION,
Defendant - Appellee
--------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
--------------------------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed Apr. 3, 2019)
(Opinion 02/15/2019, 5th Cir., 916 F.3d 423)
Before JONES, CLEMENT, and SOUTHWICK, Circuit
Judges.
PER CURIAM:
Plaintiff Kevin Wallace petitioned this court for rehearing en banc. The issue for which Wallace seeks full
court consideration is “whether, in applying section
1514A(a) of the Sarbanes-Oxley Act, the determination as to whether a plaintiff ’s belief was objectively

45a
reasonable is a matter for the trier of fact so long as
reasonable minds could disagree about that question.”
Wallace asserts that the panel’s opinion conflicts
with our precedent that the “objective reasonableness
of an employee’s belief cannot be decided as a matter
of law if there is a genuine issue of material fact.” Allen
v. Admin. Review Bd., 514 F.3d 468, 477 (5th Cir. 2008).
We applied that standard and found there were no genuine issues of material fact here. The issue of Wallace’s
objective reasonableness was thus properly decided as
a matter of law. See id.
Wallace also asserts that the panel opinion conflicts with a Supreme Court precedent discussing
“whether a judge or a jury should determine whether
tacking is available in a given case.” Hana Fin., Inc. v.
Hana Bank, 135 S. Ct. 907, 909 (2015). Although that
precedent is not directly on point, we note that despite
the Court’s conclusion that tacking “operates from the
perspective of an ordinary purchaser or consumer,” and
is thus a question for the jury, id., the Court nevertheless holds that if “the facts warrant it, a judge may decide a tacking question on a motion for summary
judgment or for judgment as a matter of law.” Id. at
911.
Finally, Wallace asserts that the panel’s opinion
conflicts with certain decisions from our sister circuits
and the Administrative Review Board applying standards similar to the one this circuit articulated in Allen.
Even if that is so, and we do not so hold, we have

46a
determined that our analysis is consistent with Allen,
which is the controlling authority.
*

*

*

Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel Rehearing is DENIED. No member of the panel nor judge
in regular active service of the court having requested
that the court be polled on Rehearing En Banc (FED. R.
APP. P. and 5TH CIR. R. 35), the Petition for Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Leslie H. Southwick
LESLIE H. SOUTHWICK
UNITED STATES CIRCUIT JUDGE
*Judge DENNIS did not participate in the consideration of the rehearing en banc.

